December 8, 2020
Via Electronic Filing
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re: Gerardo Serrano v. U.S. Customs and Border Protection, No. 20-768
Dear Mr. Harris:
As counsel for Petitioner Gerardo Serrano in the above-captioned case,
I am writing to grant blanket consent to the filing of amicus curiae briefs in
this case, provided the briefs are filed within the time allowed by the rules of
this Court. This consent applies without regard to the positions taken in the
briefs or the party supported.
Respectfully,

Robert E. Johnson
Counsel for Petitioner

cc:

Jeffrey B. Wall, Counsel for Respondents
(via email: Supremectbriefs@usdoj.gov)

